PENSION BENEFIT GUARANTY CORPORATION
     OFFICE OF INSPECTOR GENERAL
   SEMIANNUAL REPORT TO CONGRESS
 OCTOBER 1, 2004 TO MARCH 31, 2005
                                             MISSION
   The Office of Inspector General is an independent and objective voice that helps Congress, the
   Board of Directors and PBGC protect the pension benefits of American workers by promoting
                            positive change, accountability and integrity


  ________________________________________________________________________________


                                              VISION
    We will be recognized by our stakeholders as the primary source of objective & independent
                                information for their key decisions


  ________________________________________________________________________________


                                              VALUES

                                             Integrity
                                       ________________
                                      We will be a role model
                                        of ethical behavior

      Respect
________________                                                                   Excellence
                                                                               ________________
We will treat others                                                            We will constantly
  as we would like                                                             innovate & improve
  them to treat us                                                            the quality and value
                                                                                   of our work
                              Pension Beneﬁt Guaranty Corporation
                                                               Ofﬁce of Inspector General
                                                  1200 K Street, NW, Washington, DC 20005-4026




                                                                                             April 30, 2005

The Honorable Elaine Chao
Chairman, PBGC Board of Directors

On behalf of the Oﬃce of Inspector General for the Pension Beneﬁt Guaranty Corporation, I am
pleased to submit this Semiannual Report to the U.S. Congress. The report summarizes OIG activities
for the six-month period ending March 31, 2005. It details our eﬀorts to improve the economy and
eﬃciency of PBGC operations, our eﬀorts to prevent fraud, waste and misconduct, and fulﬁlls our
reporting requirements under the Inspector General Act.

A priority for my oﬃce during this reporting period was accelerated ﬁnancial reporting. This was the
ﬁrst year that federal agencies were required to issue ﬁnancial statements by November 15, and at
this time last year, I believed that there was signiﬁcant risk that PBGC would not meet the accelerated
reporting requirement. Despite many obstacles, the Corporation met the reporting deadline with a
team eﬀort on the part of the Board, PBGC management, PricewaterhouseCoopers LLP and my oﬃce.
This is particularly impressive when you consider that PBGC received its 12th consecutive unqualiﬁed
opinion and is one of a handful of federal agencies that have received an audit opinion on internal
controls since 1992.

Another priority for my oﬃce was establishing independent contract audit oversight. PBGC
contracting activity doubled from 1999 to 2003, and now represents more than sixty percent of the
annual operating budget. We have devoted a signiﬁcant portion of OIG resources to contract audits
to assist PBGC in controlling contract costs and improving contract management. Until recently, the
responsibility and resources for contract audit was under the direct supervision of the Chief Financial
Oﬃcer. OIG assumed responsibility for contract audits in 2004, and we are building the needed
infrastructure. We have also used a risk-based approach to focus our audits on contracts with the
highest risk potential and are working closely with the Procurement and the Contracts and Controls
Review Departments to ensure a smooth transition.

We also are proud of our success in obtaining indictments, convictions and monetary recoveries in our
investigations, aimed at protecting the pension beneﬁts of participants and safeguarding PBGC assets.

PBGC reported the largest ﬁnancial losses in its 30-year history in 2004. Completed and probable
pension plan terminations required the single-employer insurance program to record losses totaling
$14.7 billion, doubling the program deﬁcit to $23.3 billion. PBGC has suﬃcient assets to continue
paying participants guaranteed beneﬁts for a number of years, but with $62.3 billion in total liabilities
and $39 billion in total assets, the single employer program lacks the funds to pay a signiﬁcant portion
the future beneﬁts for which it is obligated.




                        SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005            i
PBGC’s growing deﬁcit has focused attention on the agency, and many are questioning the viability
of deﬁned beneﬁt pension plans. The Administration has submitted a proposal for legislative reform.
OIG agrees that comprehensive reform is needed to protect the pensions of workers and retirees, and
the viability of the pension insurance system.

I am grateful for your support of my oﬃce, as well as PBGC management’s cooperation and
responsiveness to our work. We are proud to be part of PBGC, and are striving to keep its programs
eﬃcient, eﬀective and free from fraud, waste and abuse.




Robert L. Emmons
Inspector General




              ii       PENSION BENEFIT GUARANTY CORPORATION
Table of Contents
Letter to the Chairman

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
The Pension Beneﬁt Guaranty Corporation
The Oﬃce of Inspector General

Audits . . .�                                                                                                                       5
Overview
Audit Activity
    Governance
    Financial Management
    Information Technology Security
    Procurement and Contracting
    Program Performance
Other Audit Activity
Access to Information
Management Decisions

Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Overview
Activity This Period
    Signiﬁcant Investigations
    Summary of Investigative Activities

Other Oﬃce of Inspector General Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Review of Proposed Statutory and Regulatory Changes
Internal PBGC Activities
Internal OIG Activities
External Activities

Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Cross-Reference to Reporting Requirements of the Inspector General Act
Reports Issued with Questioned Costs and Funds Put to Better Use
Signiﬁcant Open Recommendations

Glossary�                                                                                                                         28




                                                   SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005                                  iii
iv   PENSION BENEFIT GUARANTY CORPORATION
Executive Summary
This Semiannual Report to Congress summarizes the activities and accomplishments
of the Pension Beneﬁt Guaranty Corporation (PBGC) Oﬃce of Inspector General
(OIG) for the period October 1, 2004, through March 31, 2005. When accomplishing
audit and investigative work, we ensure that it accords with our mission to be an
“independent and objective voice for Congress, the Board of Directors, and PBGC.”
We want to focus our work on the challenges facing PBGC and to be a primary source
of timely and objective information for the organization. We will accomplish our work
demonstrating our values of respect, excellence, and integrity.

During this period, we conducted work in all areas designated as Management
Challenges, focusing much of our audit eﬀort on the ﬁnancial statement audit and its
related reports, and contract audits.

  • Governance— The Board of Directors, PBGC executives and the OIG have
  taken many positive steps to strengthen the oversight of PBGC, but additional
  improvements are needed (see page 5).
  • Financial management—we issued the 12th consecutive unqualiﬁed audit
  opinion, internal control opinion and report on laws and regulations compliance,
  related ﬁnancial reports required by the Department of Treasury, a management
  letter for ﬁnancial issues and one for information technology issues, and sponsored
  lessons learned sessions after the ﬁnancial statement audit was completed (see
  page 6).
  • Information technology —we continued our work with PBGC in areas to
  improve for Federal Information Security Management Act (FISMA) reporting and
  continuity of operations, and provided to management a benchmarking study of
  other agencies’ e-mail retention policies (see page 10).
  • Procurement and contracting—we audited contracts with a total cost of $13.3
  million and identiﬁed about $663,000 of questioned and unsupported costs,
  initiated a multi-phase contract audit and began an audit of PBGC’s procurement
  function (see page 12).
  • Program performance—we completed ﬁeld work for evaluations of the purchase
  card program and accounts payable (see page 14).


In the investigative area, we received a large number of allegations, many or which
we were able to close during the inquiry stage. We opened 11 new cases, and closed
20 cases and 40 inquiries. Signiﬁcant investigative work this period included:

  • Stolen PBGC laptop computers were recovered, resulting in three convictions
  (see page 17);
  • PBGC contractors were disciplined for misusing PBGC computers and e-mail to
  view and share pornography (see page 17);




                               SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005    1
      • Persons who engaged in pension beneﬁt fraud were convicted and ordered to
      pay restitution, and matters were referred to PBGC for collection activities (see page
      18); and
      • More than $8,000 was recovered as a result of criminal prosecutions (see page
      19).




2   PENSION BENEFIT GUARANTY CORPORATION
Introduction
The Pension Benefit Guaranty Corporation
The Pension Beneﬁt Guaranty Corporation (PBGC, or the Corporation)          PBGC paid more than $3 billion in
was established under Title IV of the Employee Retirement Income
Security Act of 1974 (ERISA), as amended (29 U.S.C. §§ 1301-1461), as       beneﬁts during 2004 to more than
a self-ﬁnancing, wholly owned federal government Corporation to             518,000 people.
administer the pension insurance program. ERISA requires that PBGC
(1) encourage the continuation and maintenance of voluntary private
pension plans, (2) provide for the timely and uninterrupted payment of
pension beneﬁts to participants and beneﬁciaries and (3) maintain
premiums at the lowest level consistent with carrying out PBGC’s
obligations.

For about 44 million Americans, PBGC provides
assurance that their retirement beneﬁts will be paid,
up to a statutory limit. PBGC protects the pensions of
participants in certain deﬁned beneﬁt pension plans
(i.e., plans that promise to pay deﬁnitely determinable
retirement beneﬁts). Such deﬁned beneﬁt pension plans
may be sponsored individually or jointly by employers
and unions. PBGC paid more than $3 billion in beneﬁts
during 2004 to more than 518,000 people. At the end
of 2004, PBGC was responsible for the pensions of
more than 1 million people, including 443,000 who will
receive beneﬁts when they retire in the future.

The Office of Inspector General
The mission of the Oﬃce of Inspector General (OIG) is to be an independent and
objective voice that helps the Congress, the Board of Directors and PBGC protect the
pension beneﬁts of American workers by promoting positive change, accountability
and integrity. To accomplish this goal, the OIG conducts agency audits, inspections
and investigations to provide our stakeholders with information they need to make
decisions. OIG staﬀ consists of 20 employees; two are investigators and one is an
administrative assistant. We are currently recruiting to ﬁll ﬁve vacant positions.

To provide value, OIG focuses work on the challenges that PBGC is facing, whether
we are issuing audit, evaluation and investigative reports or consulting with PBGC
and participating on various teams and in working groups. We are committed to our
values of respect, excellence and integrity in all we do.




                               SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005          3
                              Our approach to audit planning concentrates our eﬀorts on identifying issues that
                              are important to PBGC. We maintain an inventory of suggested audits that we receive
                              from a variety of sources, including the Board of Directors and PBGC’s senior managers.
                              Each year, we assess risk in terms of materiality, impact on operations and potential for
                              adverse publicity for the Corporation. Based on this risk assessment, we identify the
                              most important challenges on which to focus our work. The ﬁnal step is to plan and
                              conduct audits that address those challenges. Following are the major questions on
                              which we will focus in the coming year:

                                 • Does PBGC have a governance model that ensures reliable and complete ﬁnancial
                                 reporting, eﬀective customer service and ethical business dealings?
                                 • Does PBGC have strong ﬁnancial controls that are needed to protect assets and
                                 minimize costs?
                                 • Does PBGC eﬀectively balance operational eﬃciency with optimal customer
                                 service?
                                 • Do PBGC contractors provide quality products and services at a reasonable price?
                                 • Do PBGC’s information systems maximize customer service while protecting the
                                 privacy and integrity of information?

                              We have scheduled audits in 2005 to address each of these challenges.

                              As required by the Chief Financial Oﬃcers Act, we continue to audit PBGC’s ﬁnancial
                              statements. The OIG contracts with an independent public accountant (IPA) to perform
                              this work.

                          In our attempt to maximize limited resources, our approach to investigations is to
                          apply strict criteria in evaluating the quality of the allegations received. For example,
                                           we evaluate allegations against the potential criminal and civil
                                           violations, the statute of limitations, the potential for negative publicity
We follow quality standards                for PBGC and the total assets involved. This allows us to concentrate on
established by the IG community            investigative issues that are most important to PBGC.

and the Government Accountability              The OIG follows the standards contained in the Quality Standards for
                                               Federal Oﬃces of Inspector General, published by the President’s Council
Oﬃce.                                          on Integrity and Eﬃciency (PCIE) and the Executive Council on Integrity
                                               and Eﬃciency (ECIE). These standards require audits to be conducted
                                               in accordance with Government Auditing Standards, issued by the
                              Government Accountability Oﬃce. Our investigations comply with Quality Standards for
                              Investigations, which have been accepted by the PCIE and ECIE.




                     4        PENSION BENEFIT GUARANTY CORPORATION
Audits
Overview

Our approach to audits of the Corporation is to focus our work on those areas that
present signiﬁcant management challenges to PBGC. Using our past work and
input from the Board of Directors and senior managers, we focused our work this
semi-annual period primarily on ﬁnancial management, information technology,
procurement and contracts, and overall program performance. In addition to
conducting traditional audits and evaluations in these areas, the OIG staﬀ participated
on corporate-wide teams addressing various issues of joint concern and looked for
opportunities to provide consultation. Our goal is to have a positive impact on the
decision-making process of the Board of Directors and PBGC management. The
following paragraphs summarize the work of our auditors for each major management
challenge.



1.      Governance
Governance is a major challenge of the Corporation because oversight of the
Corporation’s ﬁnancial reporting process is critical to eﬀective corporate governance.
The Board of Directors, PBGC management and the Oﬃce of Inspector General are
committed to a governance model that ensures reliable and complete ﬁnancial
reporting, eﬀective customer service and ethical business dealings.


Over the last two years, Secretary Chao has implemented major
improvements in oversight of PBGC programs and operations. The                The Board and management
Board of Directors—the Secretaries of Labor, Treasury and Commerce-           have made signiﬁcant progress
-now meets regularly, and responsibilities of the Board, management
and the OIG are better deﬁned. Financial oversight has also improved          in improving oversight of PBGC
with Board review of annual reports and investment policy, and                programs and operations.
separate sessions with the Executive Director and Inspector General at
each of their meetings.

Signiﬁcant progress has been made, but the Board and PBGC management should
continue their eﬀorts to clarify roles and responsibilities. PBGC contracted with KPMG
LLP to assist in their 2004 internal control assessment. In their report, KPMG identiﬁed
the lack of clarity in roles and responsibilities of the Board and management as a
control gap. OIG will continue to work with the Board and management to better
deﬁne roles and responsibilities.




                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005        5
    PBGC’s management has also made major strides in improving ﬁnancial controls.
    Although not required to do so, PBGC management has aggressively implemented
    several initiatives to identify key controls and assess the overall control environment.
    These eﬀorts are among the ﬁrst in the federal government to comprehensively
    identify, document, test and report on signiﬁcant ﬁnancial controls. PBGC is one of
    a handful of federal agencies that has received an audit opinion on internal controls
    since 1992.


    2.      Financial Management

    PBGC is a major government enterprise that manages assets of more than $40 billion.
    In FY 2004, the Corporation paid out about $3 billion in beneﬁt payments to retirees.
    Strong ﬁnancial management controls are needed to protect assets and minimize
    costs. OIG continues to focus much of its work on ﬁnancial management issues to help
                               management address this challenge.

                                PBGC reported the largest ﬁnancial losses in its 30-year
                                history in 2004. Completed and probable pension plan
                                terminations required the single-employer insurance
                                program to record losses totaling $14.7 billion, doubling
                                the program deﬁcit to $23.3 billion. The multiemployer
                                program reported a net income of $25 million, reducing
                                the program’s deﬁcit to $236 million. PBGC has suﬃcient
                                assets to continue paying participants guaranteed
                                beneﬁts for a number of years, but with $62.3 billion in
                                total liabilities and $39 billion in total assets, the single
                                employer program lacks the funds to pay a signiﬁcant
                                portion of the future beneﬁts for which it is obligated.

                                 2004 was the ﬁrst year that federal agencies were
    required to issue their audited ﬁnancial statements by November 15. Despite many
    obstacles, PBGC was able to issue audited ﬁnancial statements on time. This was
    made possible by a team eﬀort of the Board Representatives, PBGC management,
    PricewaterhouseCoopers and the OIG. Much of our success was due to the Herculean
    eﬀorts of this team. Improved systems and processes are needed because existing
    ﬁnancial systems limit PBGC’s ability to make last minute adjustments to the ﬁnancial
    statements.




6   PENSION BENEFIT GUARANTY CORPORATION
Audit Of The Pension Beneﬁt Guaranty Corporation’s
Fiscal Years 2004 And 2003 Financial Statements
(2005-1/23182-1 And 2005-2/23182-2)

We contracted with the independent certiﬁed public accounting ﬁrm of
PricewaterhouseCoopers LLP to audit the ﬁnancial statements of Single-Employer
and Multiemployer Program Funds administered by PBGC as of the Fiscal Years 2004
and 2003. The audit is performed in accordance with auditing standards generally
accepted in the United States of America, Government Auditing Standards issued
by the Comptroller General of the United States and the GAO/PCIE Financial Audit
Manual.


In its audit of the ﬁnancial statements of Single-Employer and Multiemployer Program
Funds administered by PBGC, PricewaterhouseCoopers found:


  • The ﬁnancial statements were fairly presented, in all material respects, in
  conformity with accounting principles generally accepted in the
  United States of America;
                                                                                  PBGC is one of the few Federal
  • PBGC’s assertion about internal controls over ﬁnancial reporting
  and compliance with laws and regulations is fairly stated;                      agencies that has had an audit
  • There are ﬁve reportable conditions relating to ﬁnancial                      opinion on internal controls since
  management systems integration, information security, single-
  employer premiums, contingent liabilities for the Single-                       1992.
  Employer Program Fund,and identifying and classifying probable
  Multiemployer plans; and
  • No reportable noncompliance with laws and regulations it tested.


Despite the unprecedented ﬁnancial losses in 2004, PBGC continues to make good
progress in improving ﬁnancial management. This is the 12th consecutive year PBGC
has received an unqualiﬁed opinion on its ﬁnancial statements. PBGC also made
signiﬁcant progress in correcting internal control weaknesses. Two conditions that
we reported last year were corrected — a material weakness in estimating the value
of liabilities for multiemployer plans and a reportable condition for estimating single-
employer reserves.

While we are encouraged by the Corporation’s eﬀorts to improve ﬁnancial
management, PBGC management understands that further improvement is needed.
The Corporation still has ﬁve reportable conditions related to its ﬁnancial
reporting that were reported in prior years. While all of these issues
are important, systems integration is the biggest challenge facing the      Systems integration is the biggest
Corporation because it addresses many of the control weaknesses in the      internal control challenge facing
remaining reportable conditions. Integrated systems will also help PBGC
meet accelerated reporting requirements by reducing the time required       the Corporation.
to prepare interim ﬁnancial statements.



                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005             7
                             The most important ingredient to correcting the remaining reportable conditions is
                             a strong commitment on the part of management to implement corrective actions.
                             The Executive Director has taken a keen interest in, and emphasized the importance
                             of, correcting all of the reportable conditions. OIG is meeting routinely with Senior
                             Executives and Department Directors to discuss reportable conditions and assist in
                             developing corrective action plans.

                             Fiscal Year 2004 Financial Statement – Management Letters
                             2005-10/23182-6 and 2005-9/23182-5

                             During the ﬁnancial audit, PricewaterhouseCoopers identiﬁed internal control
                             weaknesses related to ﬁnancial reporting and information technology that were not
                             included in their audit reports. We issued two management letters to summarize
                             these ﬁndings and recommendations—one for ﬁnancial reporting and one for
                             information technology. Recommendations were presented to PBGC management to
                             improve internal controls. Each of the recommendations was thoroughly discussed
                             with PBGC management, and they agreed to take corrective actions.

                                               After extensive discussion with the Chief Financial Oﬃcer, OIG
                                               changed the audit follow-up process for management letter
OIG revised Management Letter                  recommendations in 2004 to focus attention on reportable
                                               conditions that are included in the Internal Control Report. OIG
follow-up to eliminate redundancy
                                               will continue to monitor and track corrective actions for reportable
and streamline the process                     conditions, but we have shifted responsibility for tracking
                                               management letter recommendations to PBGC management. This
                                               means that PBGC will monitor and track corrective action plans to
                                               eliminate redundancy and streamline the process.

                             Changes to the follow-up process do not mean that management letter issues are
                             not important, or that correcting management letter items is not a priority. On the
                             contrary, OIG will ask for evidence of corrective actions each year during the ﬁnancial
                             audit, and we will follow-up on the management letter recommendations each year.



                             Independent Auditors’ Report on Special Purpose Financial Statements &
                             Closing Package Documentation (2005-3/23182-3)

                             At the conclusion of the ﬁnancial statement audit, PBGC must submit ﬁnancial
                             information to the U.S. Department of Treasury and the GAO to use in preparing and
                             auditing the Financial Report of the U.S. Government. The Department of the Treasury
                             requires agencies to prepare audited special purpose ﬁnancial statements and a
                             speciﬁc closing package. We retained PricewaterhouseCoopers LLP to perform an
                             audit of PBGC’s reclassiﬁed balance sheet as of September 30, 2004, and the related
                             reclassiﬁed statements of net cost and changes in net position (special purpose
                             ﬁnancial statements) contained in the special-purpose closing package.




                  8          PENSION BENEFIT GUARANTY CORPORATION
PricewaterhouseCoopers concluded that the special-purpose ﬁnancial statements
present fairly, in all material respects, the reclassiﬁed ﬁnancial position of PBGC as of
September 30, 2004, and its reclassiﬁed changes in net position in conformity with
accounting principles and Treasury requirements.



Independent Accountants’ Report on Applying Agreed Upon Procedures for
Federal Intragovernmental Activity and Balances (2005-6/23182-4)

The Department of Treasury also requires that OIG review the Chief Financial Oﬃcer’s
representations regarding trading partner data for intragovernmental activity and
balances. We retained PricewaterhouseCoopers LLP to perform these agreed upon
procedures that assure accurate reporting. The Government Accountability Oﬃce
relies on this work when auditing the U.S. Government’s consolidated ﬁnancial
statements.

Lessons Learned from FY 2004 Financial Statement Audit
(2005-12/23193)

In 2004, PBGC achieved a major milestone by meeting
the government-wide accelerated reporting deadline of
November 15 and achieved an unqualiﬁed opinion for the                 Lessons Learned From the Financial
12th consecutive year. To build on this year’s success, OIG
                                                                       Statement Audit
hosted a series of “lessons learned” sessions with key players
in the ﬁnancial reporting process. In addition, these sessions         • Commitment by Management
provided a forum to discuss reportable conditions identiﬁed
                                                                       • Frequent Communications
during the audit and corrective action plans.
                                                                       • Better Documentation
All participants agreed that PBGC has made signiﬁcant
                                                                       • Improved Dissemination of Plan Data
progress in correcting internal control weaknesses this year.
While encouraged at the progress, we all understand that
further improvement is needed. The Corporation still has ﬁve
reportable conditions that were reported in previous years.

From the sessions, we identiﬁed several recurring themes:

  • Management needs to continue its strong commitment to and support of the
  ﬁnancial reporting process;
  • While communications during planning, execution and follow-up improved this
  year, there are opportunities to make further improvements.
  • Most of the recommendations for reportable conditions and management letter
  issues relate to documentation of processes and procedures.
  • Better internal dissemination of plan data.




                                 SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005          9
                              While all of these lessons are important, there are two challenges that need to be
                              addressed strategically to have the November 15 deadline become a routine business
                                        practice, rather than an extraordinary task;

Closing ﬁnancial records more
                                         • Close the ﬁnancial records, including conducting the processes that
often will reduce pressure on            support the ﬁnancial statements, more often during the year to reduce the
                                         pressure on management and auditors at year-end, and
management and auditors at
                                         • Improve ﬁnancial controls by integrating ﬁnancial systems.
year-end.

                                       By addressing both of these challenges, management will not only
                              streamline ﬁnancial reporting but will improve its ﬁnancial and performance
                              management with more timely and accurate information.

                              Based on the discussions at the sessions we hosted, one thing is crystal clear—the
                              lessons learned sessions were valuable because they encouraged a constructive
                              dialogue between all of the players. We plan to continue this practice after the audited
                              ﬁnancial statements are issued in 2005.



                              3.       Information Technology

                              PBGC has major initiatives to enhance customer service by providing access to
                              information through Web-based applications. Protecting the privacy and integrity of
                              customer information is a major challenge for PBGC. The OIG continues to perform
                              work to assist the Corporation in meeting this challenge.


                              Federal Information Security Management Act (FISMA) Report

                                      PBGC continues to improve its system security infrastructure and posture in
PBGC’s systems security               compliance with the Federal Information Security Management Act of 2002,
infrastructure continues to           as reported to the Oﬃce of Management and Budget (OMB). During FY 2004,
                                      PBGC continued to take signiﬁcant steps to identify levels of security required to
improve.                              control and protect its assets and information and further improve its security
                                      program. The following are examples of the progress at PBGC:


                                   • Improving the monitoring and auditing process;
                                   • Reviewing and updating security plans;
                                   • Performing semi-annual certiﬁcations of system servers to ensure
                                   implementation of current security updates;
                                   • Improving security awareness training by implementing computer-based training
                                   and brieﬁngs with awareness videos for annual and newly hired personnel;
                                   • Improving security awareness for detecting, reporting and responding to security
                                   incidents;


                  10          PENSION BENEFIT GUARANTY CORPORATION
  • Conducting exercises to test continuity of operations for general support and
  major business systems; and
  • Establishing policy and procedures based on risk assessments that reduce
  information security costs using the System Life Cycle Management process.


In the past, PBGC’s information security internal control was a reportable condition.
Though information security remains a reportable condition, we are encouraged by
progress in areas such as organizational responsibility and system monitoring.

However, a major area of concern is the lack of progress on the
certiﬁcation and accreditation of major business and general support systems.
We have previously reported this issue in our FISMA report and OMB
has increased its focus on certiﬁcation and accreditation. PBGC has
developed and implemented a plan to evaluate its major business
                                                                              PBGC has made little progress on
and general support systems over a three-year period. Although this
generally complies with OMB A-130 guidance, PBGC has not fully                certiﬁcation and accreditation of
complied with requirements to formally document the certiﬁcation and
accreditation process and produce letters supporting the accreditation
                                                                              its major systems.
of its business and general support systems. Management agrees that its
process requires signiﬁcant improvement.

We are encouraged that management continues its work on another reportable
condition—integrating its ﬁnancial systems to improve operational eﬃciency and
eﬀectiveness as well as data security. Signiﬁcant progress was made in developing a
plan for addressing this issue during FY 2004, and we anticipate further progress in
FY 2005.


Continuity of Operations

PBGC continues to improve its eﬀorts to prepare for an unexpected interruption
in normal business activities. A goal to hold two tests a year has been proposed.
Unfortunately, the test scheduled for February 2005 was cancelled due to technical
problems. It is rescheduled for April 2005 and will focus on testing those elements of
the previous test that failed to operate as expected.

Additionally, PBGC required all departments to update their Continuity of Operation
Plan (COOP) plans by March 31 as part of the annual process. This update required
a greater level of detailed planning related to criticality of functions, time frame for
functions to be operational, standard operating procedures associated with deﬁned
functions, staﬀ responsibility and accountability, and information technology
requirements. By documenting this information, PBGC is making each COOP more
granular and promoting the practice of thinking about decisions prior to an event
occurring, rather than during a recovery of business operations, thereby reducing the
risk of failure.




                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005      11
                           The OIG will continue to monitor COOP testing and provide feedback to help
                           management achieve their goal of having a reliable plan for recovery of operations in
                           an emergency.


                           E-mail Policies and Procedures

                                             In response to a request from the Executive Director, we initiated
Excessive storage of employee e-mails
                                             a benchmarking project with other federal agencies to compare
can increase cost and adversely impact       PBGC’s policies and procedures for controlling the size of employee
                                             e-mail accounts. Our objective was to determine if PBGC’s policy
information networks.
                                             allows excessive e-mail storage. Excessive storage can increase
                                             the costs of operations and adversely impact the Corporation’s
                                             information networks.

                           We contacted eight federal agencies regarding their e-mail retention policies. As
                           expected, there was a wide variety of policies and procedures, but there were
                           generally two approaches for managing e-mail. Some agencies use a voluntary
                           approach, relying on individual employees to monitor and control the volume of
                           e-mails that are kept on the system. PBGC’s policy uses this approach. However, most
                           agencies we contacted used a more proactive approach and limited the amount of
                           e-mail storage space that each of its employees is allowed.

                           In January 2005, we reported the results of our benchmarking project to the Executive
                           Director. Based on the results of our work, we concluded that taking a more proactive
                           approach improves an agency’s ability to better manage resources and costs, and
                           reduces the risk of having employees with excessive demands of their electronic
                           information systems.



                           4. Procurement and Contracting

                          PBGC contracting activity doubled from 1999 to 2003, and the Corporation now
                          spends more than 60 percent of its annual budget through contracts. Consequently,
                                        we consider contract management a major management challenge,
                                        and we are devoting a signiﬁcant portion of our audit resources to
OIG assumed responsibility for          contract audits.
contract audits in September 2004.
                                            Until recently, the responsibility and resources for contract audits
                                            was under the direct supervision of the Chief Financial Oﬃcer. OIG
                                            assumed responsibility for contract audits in September 2004. Our
                           initial eﬀorts have been focused on establishing the infrastructure needed for
                           independent contract oversight. We have worked closely with the Procurement and
                           the Contracts and Controls Review Departments to ensure a smooth transition. With
                           their assistance, we used a risk-based approach to focus our audits on contracts and
                           processes with the highest potential return for PBGC. PBGC had 137 active contracts
                           with total obligations since their award date of $668 million.

                  12       PENSION BENEFIT GUARANTY CORPORATION
Our audits have focused on two areas:
  • Identifying improvements to PBGC’s procurement process, and
  • Verifying that contractor billings were allowable, reasonable, supported and
  consistent with the terms of contracts.


Audit of PBGC’s Procurement Process

We contracted with an Independent Public Accountant (IPA) to perform an audit of
PBGC’s procurement process. In the ﬁrst phase, they gained an understanding of the
entire procurement process including:


  • Applicable laws, regulations, policies and procedures,
  • Interfaces with other business cycles and automated systems, and
  • Major control systems.


The IPA also made a preliminary assessment of signiﬁcant
inherent and control risks within the process. In                                       ��������������
                                                                                          ����������
December 2004, we briefed the Contracting Oﬃcer on these               ����
results.
                                                                       ����
The second phase of the audit was started in late
January 2005. The objective of this phase is to determine              ����
whether PBGC is complying with its policies and procedures
and related laws and regulations, in particular the Federal
                                                                       ����
Acquisition Regulations, when acquiring goods and services
in excess of $2,500. The audit covered FY 2004 procurement
                                                                       ����
activities. This work will concentrate on those signiﬁcant                    ����       ����     ����   ����

inherent and control risks identiﬁed in the ﬁrst phase. The
audit will be completed during the next reporting period.


Contract Audits

We also completed several contract audits. Four audits were conducted by the
Defense Contract Audit Agency (DCAA) and one by an IPA ﬁrm. The report numbers,
without identifying contractor information, are included in the list of Inspector General
Audit Reports in the Appendix. We accomplished these audits to:


  • Verify the accuracy of direct labor hours and labor classiﬁcations billed for two
  contractors,
  • Verify that invoices submitted by a contractor were properly supported, and
  • Verify that costs incurred by contractors were allowable, reasonable and
  consistent with contractual provisions.



                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005              13
     In ﬁve reports, we audited contracts with a total cost of $13.3 million and identiﬁed
     $662,819 of questioned and unsupported costs. PBGC’s Contracting Oﬃcer will
     determine the allowability of the questioned and unsupported costs and initiate
     necessary collection actions. The OIG will provide additional assistance to the
     Contracting Oﬃcer if needed.


                                           We also initiated another audit to:
                    ��������
     ��          ��������������
                �����������������
                                           • Verify the accuracy of direct labor hours and labor
                                           classiﬁcations billed for two contractors,
                                           • Determine if contract monitoring and
                                           oversight ensures that contractors meet contract
                                           requirements.
                                           • Evaluate compliance with federal regulations and
                                           PBGC’s policies and procedures.
            ���������������
          ������������������������������
                                           The audit reports will be issued during the next
                                           reporting period.




     5. Program Performance

     Purchase Card Program Review

     As a follow-up to the Management Advisory Letter issued in August 2001, the OIG
     conducted a survey of PBGC’s purchase card program. This review was performed
     using a risk-based approach to evaluate the controls related to the purchase card
     program. This is a high-risk program, not due to its materiality in dollars, but in its
     potential for fraud or abuse, high-proﬁle public interest, and heightened congressional
     scrutiny. For the twelve month period included in our review, there were 53
     cardholders, with combined purchase authority of $15 million, who purchased about
     $2.2 million of goods and services.

     To provide PBGC management with information concerning the eﬀectiveness and
     eﬃciency of the operational system of controls, our objectives were to determine if the
     program controls were in place and operating as intended. Because the purchase card
     program has grown since its inception, we will work with PBGC to reassess the policies
     and procedures governing card use and strengthen its training and oversight related
     to the program to reduce the risk of fraud or misuse.

     We will be meeting with management to discuss our ﬁndings and a report will be
     issued in the next reporting period.




14   PENSION BENEFIT GUARANTY CORPORATION
Accounts Payable Review

The OIG conducted a preliminary review of the PBGC Accounts Payable process to
assess the adequacy of controls associated with making vendor payments for goods
and services. We initiated this review because erroneous payments is a component
of the President’s Management Agenda, and is a long-standing, widespread and
signiﬁcant problem in the federal government. Our review statistically sampled 4,360
payments for goods and services totalling $150 million over a 3 year period.

Improper and erroneous payments are payments that should not have been made
or were made for incorrect amounts because of errors, poor business practices, or
intentional fraud or abuse. A joint workgroup composed of members from the Chief
Financial Oﬃcers Council and the President’s Council on Integrity and Eﬃciency
identiﬁed a number of signiﬁcant problems that increase the risk of such payments,
such as: a weak or incomplete program control environment; risks inherent in the
regulatory and policy structure; and a lack of attention toward, as well as restrictions
on, Government-wide coordination and information-sharing.

While there are no reporting requirements for PBGC with respect to improper
payments, we are committed to helping PBGC implement the intent of the President’s
initiative. The audit will provide PBGC with valuable information on controls that can
be considered when the existing accounts payable system is replaced as part of its
ﬁnancial systems integration project.

We have completed our work and will be meeting with management to discuss our
ﬁndings. A report will be issued in the next reporting period.



Other Audit Activity
Peer Review of the Federal Reserve Board’s
Oﬃce of Inspector General

We initiated a quality control review of the audit operations of the Oﬃce of Inspector
General at the Federal Reserve Board. External peer reviews are conducted within the
OIG community once every three years. This review will be conducted during the next
reporting period.




                                 SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005     15
                           Planned Audit Projects

                           Premium and Practitioner System Pre-implementation Review

                           To correct identiﬁed deﬁciencies in the current Premium Accounting System and help
                           meet a portion of the requirements in its ﬁnancial systems integration project, PBGC is
                           developing a new system to process premium payments and plan sponsor accounts.
                           The Executive Director asked OIG to provide an independent assessment of the
                           development project to:

                              • Verify adherence to PBGC’s Systems Life Cycle Management,
                              • Assess PBGC’s ability to maintain the new system, if there is pension reform, and
                              • Make recommendations on future development.
                           The OIG has contracted with an IPA ﬁrm to help with this work and will issue a report in
                           the next reporting period.



                           Access to Information

                         Under the Inspector General Act, the Inspector General is to have unfettered access
                         to all agency records, information, or assistance when engaged in an investigation or
                                                    audit. Whenever access to requested records, information,
                                                    or assistance is unreasonably refused or not provided, the
Under the Inspector General Act, the
                                                    Inspector General must promptly report the denial to the
Inspector General has unfettered access to          agency head.
all agency records and information
                                                    During this six month reporting period, the Inspector
                                                    General’s access to information was not restricted.



                           Management Decisions
                           The Inspector General is required to report the following about management decisions
                           on audit reports that occurred during this six-month period:
                             • There were no audit reports for which there was not a management decision.
                              • There were no signiﬁcant revised management decisions.
                              • There were no management decisions with which the Inspector General
                              disagreed.




                 16        PENSION BENEFIT GUARANTY CORPORATION
Investigations
Overview
A major responsibility of the Inspector General is to receive and investigate complaints
from PBGC employees, the public and other sources concerning violations of law,
rule, or regulation; mismanagement; gross waste of funds; abuse of authority; or
a substantial and speciﬁc danger to the public health and safety. Individuals may
disclose information or make complaints to the Inspector General through the OIG
Hotline (see announcement on back cover page). The Inspector General protects the
legal rights of whistle-blowers and complainants and takes great care to not disclose
their identity without their consent.


OIG Hotline
The OIG operates a separate toll-free Hotline telephone number and
                                                                           The OIG does not disclose the identity
a conﬁdential Hotline post oﬃce box. The OIG Hotline telephone is
answered by an investigative staﬀ assistant for a two-hour period,         of complainants without their
Monday through Friday. At all other times, a recorded message
provides information about the Hotline service and refers callers to
                                                                           consent.
our main telephone number.


Activity This Period
Signiﬁcant Investigations
Theft Of Government Computer
In our last semiannual report, we reported the arrest and indictment of four        Three people who were
individuals who were charged in the San Diego County court with theft of
                                                                                    involved in stealing a PBGC
U.S. Government property (PBGC laptops), destroying and altering data on a
government computer, child pornography, identity theft, credit card theft and       computer were convicted and
the possession, sale and distribution of controlled substances. To date, three
                                                                                    sentenced.
of those individuals have been convicted and sentenced.


PBGC’s E-systems Used For Oﬀensive Material
During our last semiannual period, we issued multiple Reports of Investigation
concerning federal employees and contractors who were using U.S. Government
computers and the PBGC e-mail system to view, share and store pornographic and
other inappropriate material. We identiﬁed 30 federal and contractor employees
who were involved in viewing and sharing the oﬀensive materials. The contractor
terminated 8 of its employees and counseled 3 others. Management action on the
federal employees is still pending.




                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005            17
                             Subsequent to issuing those reports, other contractor employees were referred to
                             the OIG. With minimal investigation we determined that these contractor employees
                             were engaging in similar misconduct and referred the matter to the contractor
                             management and appropriate PBGC oﬃcials. The contractor took swift action by
                             terminating 4 employees and suspending 4 other employees.


                             Pension Fraud
                             An individual who stole a participant’s $4,000 pension check in Chattanooga, TN
                                    was convicted. She received a three year sentence in the Chattanooga
                                    Correctional Facility and was ordered to pay $4,000 restitution to the
An individual who stole             participant.
a participant’s check was
                                     Signiﬁcant investigative and criminal prosecutive action occurred in a matter
sentenced to three years.            involving a man who opened an account in a Florida credit union and illegally
                                     deposited a participant’s check. This individual also created checks that
                                     appeared to be PBGC pension checks by using PBGC’s logo and account
                             number, and the bank logo and authorizing signature. Coordination with the Florida
                             credit union and local law enforcement authorities resulted in the individual’s arrest,
                             with his court date pending.

                             During this period we closed 14 cases and/or inquiries that raised issues of fraud
                             relating to pension plans and beneﬁts, including:

                               • PBGC referred a fraud involving the son of a participant who claimed his father
                               was still alive and always provided a reason why PBGC representatives could
                               not speak with the participant. The PBGC veriﬁed that the participant died in
                               2001. The son cashed sixteen checks for a total amount of $7,845. This matter
                               was referred to the U.S. Attorney’s Oﬃce for the Central District of Florida and
                               subsequently to PBGC management for administrative collection of $7,845.
                               • A very alert Pension Law Specialist (PLS) with the PBGC Insurance Operations
                               Department notiﬁed the OIG when she noted that a participant’s ﬁle showed
                               numerous phone calls to the PBGC customer service center, with a ﬂurry of
                               changes of address and stop payments on checks. The situation seemed very
                               unusual because diﬀerent people appeared to be calling to change the mailing
                               address of the pension check. With the PLS’ assistance, we determined that the
                               son of a participant was re-directing his father’s pension checks and cashing them.
                               The son cashed more than $4,890 in checks. The son subsequently admitted to
                               the PLS that he had fraudulently changed the address and was cashing his father’s
                               pension checks for his personal use. The case was referred for possible criminal
                               prosecution, which was declined by the U.S. Attorney’s Oﬃce for the Northern
                               District of Illinois. The individual was referred back to PBGC management for
                               administrative collection of $4,890.




                  18        PENSION BENEFIT GUARANTY CORPORATION
SUMMARY OF INVESTIGATIVE ACTIVITIES
For The Six-month Period Ending March 31, 2005


Investigations
    Pending beginning of period                               44
    Opened                                                    11
    Closed                                                    20
    Pending end of period                                     35

Inquiries
    Pending beginning of period                               23
    Opened                                                    31
    Closed                                                    40
    Pending end of period                                     14


Financial Recoveries*
    Theft of Funds Recovered                                   0
    Court Ordered Fines, Penalties and Restitution        $6,668
    U.S. Government Property Recovered                    $2,000


Criminal Actions*
    Arrests                                                    1
    Indictments                                                0
    Convictions                                                4


Administrative Actions*
    For Prosecution:
       Department of Justice                                  34
          Declined                                            34
       Various States’ Attorney Oﬃces                          1
          Declined                                             0
    For Other Action:
         PBGC Management for Corrective Action                19




* Results reported for Financial Recoveries, Criminal and Administrative Actions
include both open and closed cases.




                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005   19
20   PENSION BENEFIT GUARANTY CORPORATION
Other Oﬃce of
Inspector General Activities
Review of Proposed Statutory and Regulatory Changes

Statutes
A major responsibility of the OIG under the IG Act is to independently
review changes to laws and regulations that are proposed by PBGC. In              OIG consults with managers to
January 2005, the Administration proposed major pension law reform to
                                                                                  improve operations and promote
provide simplicity, ﬂexibility, accuracy, stability and transparency in the
single employer deﬁned beneﬁt pension insurance program. The reforms              fraud prevention.
are in three categories:

  • Better funding of pension plans – a single, accurate measure of liability, adjusted to
  reﬂect risk of plan termination; funding targets based on risk of plan termination and
  a reasonable period of time to reach the target; and ﬂexibility to contribute more in
  good economic times.
  • Revised premiums paid to PBGC — a ﬂat-rate per-participant charge, increased and
  indexed for wage growth; and a risk-based premium incorporating both risk of plan
  termination and plan underfunding, adjusted by the Board of Directors to maintain
  program solvency.
  • More transparent information on plan health — participants receive more accurate
  and more understandable plan ﬁnancial data, including trend data on plan assets
  relative to the plan’s funding target; PBGC receives more timely reporting.


These reforms were a joint Administration eﬀort, including the Departments of Labor,
Commerce and Treasury as well as PBGC. We were briefed by PBGC oﬃcials on the
proposals. We believe these reforms will help to protect the pensions of more than 34
million workers and retirees by improving disclosure to workers, investors and regulators,
and protecting the ﬁnancial health of PBGC.

Regulations
PBGC has engaged in a major eﬀort to streamline its regulations
and to improve administration of the pension insurance program,
with a focus on making pension-related information more accurate,        Reform is needed to provide simplicity,
complete and transparent. The Corporation issued proposed and            ﬂexibility, accuracy, stability and
ﬁnal rules in a number of areas, including assessment of and relief
from statutory penalties. This would require pension plan sponsors       transparency in the deﬁned beneﬁt
to electronically submit premium ﬁlings and other required               pension insurance program.
actuarial and ﬁnancial information, provide an alternate method
to compute the liability of a certain employer who withdraws from
a multiple employer plan, and change what a pension plan must
report to PBGC (“reportable events”) and how it is reported. Upon review, we believe the
regulatory changes are reasonable.
                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005         21
                           Internal PBGC Activities

                           OIG staﬀ members have engaged in several activities within PBGC to promote
                           fraud prevention, improve relationships between the OIG and PBGC, and provide
                           consultations to managers to improve agency operations. Among these activities are
                           the following:


                             • An investigator briefed employees on the OIG’s functions and potential fraud
                             pitfalls relating to travel in a Traveler’s Workshop. We also provided a card with OIG
                             contact information, including our hotline telephone number and post oﬃce box
                             address to receive complaints.


                             • An OIG auditor received a PBGC Corporate Recognition Award for the OIG’s
                             participation on the Program Assessment Rating Tool (PART) team. The award
                             recognizes the thorough and realistic assessment of PBGC’s performance, including
                             identifying and gathering all necessary documentation and coordination with the
                             Oﬃce of Management and Budget.


                             • Multiple members of the OIG are participating in a special leadership mentoring
                             program, “Building Your Leadership Toolbox.” This nine-month program gives
                             a small group of employees the opportunity to work directly with senior PBGC
                             managers, discussing best practices and completing developmental assignments.
                             An OIG auditor was selected as one of seven PBGC employees in this program. In
                             addition, both the Deputy IG and the Assistant IG for Audit are senior mentors,
                             leading sessions in Oral Communications and Leadership.


                             • The Inspector General and Deputy IG continue their involvement in PBGC’s
                             structured mentoring programs through one-on-one mentor pairings with PBGC
                             employees who are not in the OIG.




                           Internal OIG Technology initiatives

                           Certiﬁcation and Accreditation of OIG Local Area Network (LAN)


OIG is certiﬁying and               In June 2004, the OIG began to consider its own compliance with the
                                   National Institute of Standards and Technology (NIST) Special Publication
accrediting its major business     800-37, Guide for the Security Certiﬁcation and Accreditation of Federal
system.                            Information Systems. We determined that the network system used for OIG
                                   communications and access to PBGC applications was a signiﬁcant system
                                   that required compliance.




                  22       PENSION BENEFIT GUARANTY CORPORATION
As such, the following steps were taken between October 2004 and February 2005 to
certify and accredit the OIG LAN:


  • Identiﬁed an individual as the owner of the system. This person has day-to-day
  responsibility for the operation of the system and must be a federal employee.
  • Identiﬁed an individual as the accrediting oﬃcial. This person is a senior oﬃcial
  within the organization having budget and decision-making authority that would
  aﬀect the system and must be a federal employee.
  • Determined whether each system is a general support or a major application.
       • Performed a system risk assessment.
       • Based on the assessment, categorized the system as high impact.
       • Developed and documented a security plan for the system.
       • Contracted with a systems review specialist to perform an independent
       review of the system security resulting in a certiﬁcation.
       • Developed a corrective action plan for identiﬁed weaknesses and began
       correcting items immediately.
  • Presented accreditation package including certiﬁcation (security assessment
  report), system security plan and plan of action and milestones to the accreditation
  oﬃcial for signature.
  • Signed Interim Authority to Operate on February 1, 2005, for a period of 6
  months.


We anticipate that all deﬁciencies will be corrected well before the end of the 6 month
period and the Inspector General will grant a full accreditation for 3 years.


OIG COOP Support to Wilmington, DE

 The OIG is completing a move of its backup equipment, including all servers to
support access to applications and e-mail, to Wilmington, Delaware, as part of its
Continuity of Operations Plan. With this move, the OIG joins PBGC in relocating its
backup support to a hot-site outside of the immediate Washington, DC area. This
enables the OIG to provide continued support to its staﬀ in the event its headquarters
oﬃces are not available. Once all equipment is in place and functional, the OIG will
join PBGC in testing the COOP at least twice a year.




                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005     23
                        External Activities
                        Various staﬀ members participated in external professional activities, including the
                        following:

                          • The Inspector General chairs the PCIE/ECIE Human Resources Committee’s “Core
                          Competency” Working Group project. Looking at best practices in the private and
                          public sectors, the Core Competency Working Group has identiﬁed core competencies
                          for auditors, inspectors and criminal investigators as well as crosscutting competencies
                          (i.e., leadership, management and team skills). Further work will:


                                • Identify a curriculum that addresses crosscutting competencies (i.e., leadership,
                                management and team skills), including recommending a process for continuous
                                assessment of core competency training.
                                • Assess training institutes and academy abilities to support the training need of
                                the IG community, including the pros and cons of combining training currently
                                oﬀered at the three IG academies.


                          The Inspector General has briefed numerous stakeholders, including the PCIE/ECIE
                          audit and investigative committees. The results will be published in August 2005.


                                            • An OIG auditor is participating in a government-wide working
OIG is participating in a government-       group to improve the overall eﬃciency and eﬀectiveness of FISMA
                                            reporting. The working group is comprised of members from the OIG
wide working group to improve               community, GAO and the Oﬃce of Management and Budget (OMB).
FISMA reporting                             The working group is discussing, among other issues:


                                           • Establishing a uniform cut-oﬀ date for the completion of audit
                                work and reporting.
                                • The OMB deﬁning its overall conclusion as a result of the government-wide
                                combined FISMA reporting.
                                • The GAO is revising its Federal Information System Controls Audit Manual
                                (FISCAM), in particular developing conclusions about agencies’ Information
                                Security programs.


                          • OIG audit staﬀ received two PCIE/ECIE “Awards for Excellence” for an evaluation of
                          PBGC’s Field Beneﬁt Administrators and participation in the agency’s PART team.


                          • The Inspector General continues to represent government auditors as a member
                          of the International Seminars Committee of the Institute of Internal Auditors. This
                          committee focuses on identifying emerging trends in auditing and on training courses
                          and seminars to address these trends.




                  24      PENSION BENEFIT GUARANTY CORPORATION
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the speciﬁc pages in the report where they are
addressed.

Inspector General
Act Reference          Reporting Requirements                             Page
Section 4(a)(2)        Review of legislation and regulations.             21
Section 5(a)(1)        Signiﬁcant problems, abuses and deﬁciencies.       5-15
Section 5(a)(2)        Recommendations with respect to signiﬁcant         27
                       problems, abuses and deﬁciencies.
Section 5(a)(3)        Prior signiﬁcant recommendations on which          27
                       corrective action has not been completed.
Section 5(a)(4)        Matters referred to prosecutorial authorities.     17-19
Section 5(a)(5)        Summary of instances in which information          None
                       was refused.
Section 5(a)(6)        List of audit reports by subject matter, showing 26-27
                       dollar value of questioned costs and
                       recommendations that funds be put to better use.
Section 5(a)(7)        Summary of each particularly signiﬁcant report.    5-15
Section 5(a)(8)        Statistical table showing number of reports and    26
                       dollar value of questioned costs.
Section 5(a)(9)        Statistical table showing number of reports and    26
                       dollar value of recommendations that funds be
                       put to better use.
Section 5(a)(10)       Summary of each audit issued before this           None
                       reporting period for which no management
                       decision was made by end of reporting period.
Section 5(a)(11)       Signiﬁcant revised management decisions.           None
Section 5(a)(12)       Signiﬁcant management decisions with which         None
                       the Inspector General disagrees.




                               SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005      25
REPORTS ISSUED WITH QUESTIONED COSTS*
AND FUNDS PUT TO BETTER USE
For the Six-Month Period Ending March 31, 2005



                                                      Number          Questioned         Unsupported       Funds put to
                                                     of Reports         Costs               Costs           Better Use

  A. For which no management decision had               2**          $1,251,019            $752,812          -0-
  been made by the commencement of the
  reporting period.
  B. Which were issued during the reporting             5            $198,764***           $624,342          -0-
  period

  Subtotal (Add A. & B.)                                7            $1,449,783            $1,377,154        -0-


  C. For which a management decision was                0            -0-                   -0-               -0-
  made during the reporting period.

  (i) dollar value of disallowed costs                  0            -0-                   -0-               -0-


  (ii) dollar value of costs not disallowed             0            -0-                   -0-               -0-


  D. For which no management decision had               7            $1,449,783            $1,377,154        -0-
  been made by the end of the reporting
  period.
  E. For which no management decision was               2            $1,251,019            $752,812          -0-
  made within six months of issuance.



*This statistical information is required by Section 5(a)(6)(8) and (9) of the Inspector General Act of 1978, as
amended.
**Reviews were conducted by the OIG and PBGC’s Contracts and Control Review Department (CCRD). CCRD is an
internal management oﬃce that conducts reviews of PBGC contracts.
*** Includes questioned costs of $160,288 reported by CCRD and $38,476 reported by OIG.




                     26         PENSION BENEFIT GUARANTY CORPORATION
SIGNIFICANT PROBLEMS, DEFICIENCIES AND RECOMMENDATIONS
Report Number, Report Title and       Number of             Signiﬁcant Problems Summary of Signiﬁcant
Date Issued                           Signiﬁcant            and Deﬁciencies     Recommendations
                                      Recommendations
98-3/23126-2                                                Reportable                PBGC needs to complete
Audit of the Pension Beneﬁt                                 Condition:                the integration of its ﬁnancial
Guaranty Corporation’s Fiscal Years                         Integrating               management systems.
1997 - 1996 Financial Statements              1**           Financial
03/23/1998                                                  Management
                                                            Systems
2003-3/23168-2                                              Reportable                PBGC needs to complete its
Audit of the Pension Beneﬁt                                 Condition:                efforts to fully implement and
Guaranty Corporation’s Fiscal Years                         Implementing              enforce an effective information
2001 - 2000 Financial Statements              2**           & Enforcing               security program.
01/30/2003                                                  Information
                                                            Security Program
2005-2/23182-2                                              Reportable                PBGC needs to improve
Audit of the Pension Beneﬁt                                 Condition:                controls related to single-
Guaranty Corporation’s Fiscal Years            5            Improving Single-         employer premiums.
2004 - 2003 Financial Statements                            Employer Premium
11/15/2004                                                  Accounting System
2005-2/23182-2                                              Reportable                PBGC needs to continue to
Audit of the Pension Beneﬁt                                 Condition:                improve its controls over the
Guaranty Corporation’s Fiscal Years                         Identifying               identiﬁcation and measurement
2004 - 2003 Financial Statements               7            & Classifying             of the single-employer
11/15/2004                                                  Contingent                contingent liabilities.
                                                            Liabilities for Single-
                                                            Employer Program
2004-2/23176-2                                              Reportable                PBGC needs to strengthen
Audit of the Pension Beneﬁt                                 Condition:                controls over the identiﬁcation
Guaranty Corporation’s Fiscal Years                         Identifying &             and classiﬁcation of
2003 - 2002 Financial Statements                            Classifying Probable      multiemployer plans probable
1/15/2004                                                   Multi-Employer            of receiving ﬁnancial
2005-2/23182-2                                6**           Plans                     assistance.
Audit of the Pension Beneﬁt
Guaranty Corporation’s Fiscal Years
2004 - 2003 Financial Statements
11/15/2004


* This chart complies with Section 5(a)(1)(2)(3) and (6) of the Inspector General Act of 1978, as Amended.
** Includes Signiﬁcant Recommendations from previous semi-annual reports on which corrective action has not
been completed.




                    27        SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005            27
     Glossary
     Questioned Cost
     A cost the OIG has questioned because of an alleged violation of law, regulations,
     contract, grant, cooperative agreement, or other agreement or document governing
     the expenditure of funds; because such cost is not supported by adequate
     documentation; or because the expenditure of funds for the intended purpose is
     unnecessary or unreasonable.


     Unsupported Cost
     A cost the OIG has questioned because of a lack of adequate documentation at the
     time of the audit.


     Disallowed Cost
     A questioned cost that management, in a management decision, has sustained or
     agreed should not be charged to the government.


     Funds to Be Put to Better Use
     Funds the OIG has identiﬁed in an audit recommendation that could be used more
     eﬃciently by reducing outlays, deobligating program or operational funds, avoiding
     unnecessary expenditures, or taking other eﬃciency measures.


     Management Decision
     Management’s evaluation of audit ﬁndings and recommendations and issuance of a
     ﬁnal decision concerning management’s response to such ﬁndings and recommendations.


     Final Action
     The completion of all management actions described in a management decision with
     respect to audit ﬁndings and recommendations. If management concluded that no
     actions were necessary, ﬁnal action occurs when a management decision is issued.


     Misconduct
     Action of employees or contractors that violates laws, rules, or regulations and for
     which corrective action is warranted.




28   PENSION BENEFIT GUARANTY CORPORATION                             28
29   PENSION BENEFIT GUARANTY CORPORATION
   If you want to report or discuss conﬁdentially any instance of
misconduct, fraud, waste, abuse, or mismanagement, please contact
                   the Oﬃce of Inspector General.

                           Telephone:

                 The Inspector General’s HOTLINE
                         1-800-303-9737

            For deaf or hard of hearing people, dial FRS
     (800) 877-8339 and give the Hotline number to the agent.

                            Or write:

              Pension Beneﬁt Guaranty Corporation
                   Oﬃce of Inspector General
                         PO Box 34177
                  Washington, DC 20043-4177
